                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




            Audit Report

        Farm Service Agency
Milk Income Loss Contract (MILC) Program




                             Report No. 03601-10-Ch
                                   DECEMBER 2004
                          UNITED STATES DEPARTMENT OF AGRICULTURE

                                      OFFICE OF INSPECTOR GENERAL

                                            Washington, D.C. 20250




DATE:


REPLY TO
ATTN. OF:      03601-10-CH

SUBJECT:       Farm Service Agency - Milk Income Loss Contract (MILC) Program

TO:           James R. Little
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


Based on the memorandum from your office dated November 18, 2004, we accept management
decision on Recommendation No. 1. A summary of management decision is attached. Please follow
your agency’s internal procedures in forwarding documentation for final action to the Office of the
Chief Financial Officer.

If you have any questions, please have a member of your staff contact Ernest M. Hayashi, Director, Food
and Marketing Division at 720-2887.



 /s/
ROBERT W. YOUNG
Assistant Inspector General
  for Audit


cc: Office of the Chief Financial Officer
    (w/attachment and a copy of
     above-mention memorandum)
Executive Summary
Milk Income Loss Contract (MILC) Program
Audit Report No. 03601-10-Ch


Results in Brief                     The Milk Income Loss Contract (MILC) Program provides producers on
                                     eligible dairy operations with monthly payments based on the quantity of
                                     eligible production marketed by the producer in a month when the domestic
                                     milk prices fall below a specified level. We performed this audit survey to
                                     evaluate whether (1) payments to producers were properly determined and
                                     were based on reliable evidence of production, and (2) FSA State and county
                                     offices correctly and consistently applied the definition of a “dairy operation”
                                     when determining the production cap for each dairy operation.

                                     Since the MILC Program’s inception under the 2002 Farm Bill, FSA has
                                     disbursed over $2 billion in program payments to dairy producers. We found
                                     that, although FSA’s controls over MILC program payments were generally
                                     effective, FSA county officials made several errors in determining eligibility
                                     and computing payments (see exhibit A). We concluded that these errors
                                     represented isolated instances, and the county offices agreed to follow up on
                                     them.

                                     In addition, we found that the FSA State offices’ disparate definitions of a
                                     “dairy operation” (used to determine whether a producer should be allowed to
                                     participate in the program as a single or multiple dairy operation) resulted in
                                     inconsistent payments to producers in different States. FSA requested that
                                     we assess the impact of the States’ inconsistent definitions after attempting to
                                     develop a more specific definition in 2002.1 Our review confirmed FSA’s
                                     concerns, documenting significant differences in the criteria used to define a
                                     dairy operation from State to State. Further, we identified at least three
                                     instances in which, because of the States’ varying criteria, producers with
                                     similar operations located in different States received disparate program
                                     payments. Although the MILC program is currently slated to end with the
                                     2005 fiscal year (FY), proposed legislation could extend the program through
                                     FY 2007. We concluded, and agency officials agreed, that FSA should
                                     submit language for inclusion in the proposed legislation that would ensure a
                                     consistent, nationwide definition of a dairy operation.




1
  The Office of the General Counsel (OGC) had advised FSA officials that the existing law prohibited them from applying different standards than those
that were used under the predecessor Dairy Market Loss Assistance (DMLA) Program.

USDA/OIG-Audit No. 03601-10-Ch                                                                                                                           i
Recommendations
in Brief            We recommend that FSA submit proposed language to the Department for
                    inclusion in the amendment to the Farm Security and Rural Investment Act of
                    2002, which would permit FSA to establish a clear, consistent, nationwide
                    definition of a dairy operation. In addition, we recommended that the agency
                    verify that county offices either recover or provide documentation to justify
                    the overpayments and unsupported costs questioned in the report, and
                    disburse cited underpayments to producers.

Agency
Response            In their November 18, 2004, response to the draft report, FSA officials
                    generally agreed with the findings and recommendations as presented.

OIG Position        We agree with FSA’s response, and have reached management decision on
                    Recommendation No. 1. Management decision can be reached on
                    Recommendation No. 2 once FSA has provided us with the information
                    specified in the OIG Position section for Recommendation No. 2.




USDA/OIG-Audit No. 03601-10-Ch                                                                 ii
Table of Contents
Executive Summary ................................................................................................................................. i

Background and Objectives ....................................................................................................................1
Findings and Recommendations.............................................................................................................2
   Section 1. MILC Program Eligibility and Payments......................................................................2
          Finding 1             Definition of a Dairy Operation Needs To Be
                                Clarified To Ensure Consistent Application by States .........................................2

                                     Recommendation No. 1 ...................................................................................7

          Finding 2             Eligibility and Payment Errors Resulted in Unsupported Costs and
                                Underpayments to Producers ................................................................................8

                                     Recommendation No. 2 ...................................................................................9

Scope and Methodology.........................................................................................................................11

Exhibit A –Summary of Monetary Results ...........................................................................................13
Exhibit B –Disparity Between Sampled States in the Number of Producers with
           Multiple Dairy Operations and Multiple Contracts ...........................................................14
Exhibit C – State Criteria .......................................................................................................................15
Exhibit D – FSA Response to Draft Report............................................................................................16




USDA/OIG-Audit No. 03601-10-Ch                                                                                                                   iii
Background and Objectives
Background          The MILC Program was authorized by section 1502 of the 2002 Farm Bill,
                    the Farm Security and Rural Investment Act of 2002 (Public Law 107-171).
                    The 2002 Farm Bill authorizes the Farm Service Agency (FSA) to provide
                    the nation’s dairy producers with economic assistance for market losses.
                    Under the program’s provisions, payments are issued on a monthly basis to
                    eligible dairy operations based on the Boston Class I milk price. If the
                    Boston Class I milk price falls below a pre-determined benchmark of
                    $16.94 per hundredweight, participating producers receive payments at the
                    rate of 45 percent of the difference between the Boston Class I market price
                    and the $16.94 benchmark. For example, if the Boston Class I price were
                    $14.51, a participating producer would receive $1.09 (45 percent of the
                    $2.43 difference between the Boston Class I price and the benchmark) for
                    every hundredweight marketed up to a total of 2.4 million pounds per dairy
                    operation.

                    To qualify for program payments, dairy producers must meet certain
                    eligibility criteria and enter into a Milk Income Loss Contract (Form CCC-
                    580) for each participating dairy operation. A producer may have either one
                    or multiple dairy operations, each of which would have its own contract and
                    be separately subject to the 2.4 million pound production cap. To receive
                    payments, producers must provide evidence of dairy production, such as sales
                    records, to the FSA county office.

                    Under the 2002 Farm Bill, the MILC Program generally covers eligible
                    production marketed by the producers on a dairy farm during the period
                    beginning December 1, 2001, and ending on September 30, 2005 (FY 2005).
                    However, Congress has introduced legislation that could potentially extend
                    the MILC Program through FY 2007. It was originally estimated that the
                    MILC Program would cost approximately $1.4 billion. However, payments
                    through July 2004 already exceeded $2 billion.

                    The 2002 Farm Bill contains a requirement that the same eligibility and other
                    requirements that applied to the most recent of the three Dairy Market Loss
                    Assistance (DMLA-III) Programs under section 805 of the 2001
                    Appropriations Act be carried over and incorporated into the MILC Program.

Objectives          The objective of the audit was to evaluate whether program payments to
                    producers were properly determined and were based on reliable evidence of
                    production. In addition, we evaluated whether the State and county offices
                    were correctly and consistently applying the definition of a “dairy operation”
                    in applying the production cap.




USDA/OIG-Audit No. 03601-10-Ch                                                                  1
Findings and Recommendations
Section 1.   MILC PROGRAM ELIGIBILITY AND PAYMENTS
                    Based on our audit work and information provided to us by FSA national
                    officials, we determined that the FSA State offices were using varied and
                    sometimes inconsistent criteria for determining whether dairy producers
                    should be allowed to participate in the MILC Program as single or multiple
                    dairy operations.     Because of the inconsistent definitions of a dairy
                    operation, producers with similar operations located in different States
                    received disparate MILC Program payments.

                    In addition, our review of the three county offices in one State disclosed
                    errors that resulted in overpayments and unsupported payments totaling about
                    $59,600, and underpayments of about $4,500.


Finding 1           DEFINITION OF A DAIRY OPERATION NEEDS TO BE CLARIFIED
                    TO ENSURE CONSISTENT APPLICATION BY STATES

                    The definition of a dairy operation, for the purpose of limiting eligible
                    quantities of milk production under the MILC Program, was applied
                    inconsistently from State to State, impacting the amount of program benefits
                    received by producers with similar operations in different States. Although
                    FSA officials recognized the disparities, the Office of the General Counsel
                    (OGC) advised FSA that according to the law the definition of a dairy
                    operation could not be changed. In four selected States, we found numerous
                    discrepancies in the criteria applied by the State offices to determine whether
                    producers had single or multiple operations. We also identified three
                    instances where producers in two of these States received disparate program
                    benefits amounting to $174,721 in one State and $70,325 in the other.

                    The DMLA Programs I, II, and III, established in 1999, provided financial
                    assistance to dairy producers through fiscal year 2001. The MILC Program
                    was established by the 2002 Farm Bill, and is generally similar to the DMLA
                    Programs in that it provides for payments to dairy producers when the market
                    price of milk per hundredweight falls below an established threshold. In
                    addition, both the MILC and DMLA Programs included provisions to limit
                    per dairy operation the amount of milk on which payments could be made.
                    For the MILC Program, the production cap was 2.4 million pounds of milk
                    per dairy operation per fiscal year.

                    The 2002 Farm Bill requires that “for purposes of determining whether
                    producers are producers on separate dairy operations or a single dairy
                    operation, the Secretary shall apply the same standards as were applied in
                    implementing [DMLA III].” Under DMLA-III, FSA defined a dairy


USDA/OIG-Audit No. 03601-10-Ch                                                                   2
                           operation as “any person or group of persons who as a single unit markets
                           milk commercially and whose production and facilities are located in the
                           U.S.” However, this regulatory definition did not clarify the term “single
                           unit”2 and the term remains open to interpretation. Currently, FSA State
                           offices make determinations of what constitutes a “single unit” based on a
                           variety of criteria that can vary widely from State to State.

                           In 2002, aware that the FSA State offices were not using consistent criteria in
                           making their determinations, and in light of Congress’ enactment of the
                           MILC Program, the FSA national office conducted a survey of the 13 States
                           that had the largest DMLA payments to determine the extent of the disparity.
                           The survey presented six different scenarios involving dairy operations that
                           were potentially eligible to receive MILC payments and asked the States to
                           determine whether they would consider the producer as having a single dairy
                           operation or two operations. One scenario, for instance, described a situation
                           where two producers owned herds located on a single farm, and shared the
                           same milking parlor but maintained separate books and received separate
                           milk checks. Of the 11 State offices that responded to the survey,
                           6 considered it a single operation while the other 5 concluded that two
                           operations were involved. Overall, the States’ opinions diverged on three of
                           the six survey scenarios.

                           Based on the survey results, the FSA national office concluded that it needed
                           to clarify the definition of a dairy operation to prevent inconsistent
                           interpretations that would in turn affect the amount of program payments a
                           producer could receive under the production cap of 2.4 million pounds per
                           dairy operation. In a 2002 draft memorandum to the Under Secretary, FSA
                           summarized the results of its survey and proposed adding a definition of a
                           “single unit” to the existing definition of a dairy operation. However, the
                           OGC advised that FSA could not legally change the existing definition.
                           Although OGC did not provide FSA with a written legal opinion, it told FSA
                           officials that that the law instructs the Secretary to apply the same standards
                           as were applied in implementing the DMLA Program. This provision,
                           according to OGC, prevented FSA from applying a more detailed definition
                           of a dairy operation than was in effect under DMLA.

                           At the beginning of our review FSA officials informed us of the States’
                           inconsistent application of the term “dairy operation” for participation in the
                           MILC Program and requested that OIG review the situation further. We
                           interviewed officials at the California, Michigan, Pennsylvania and
                           Wisconsin State FSA Offices to document the criteria used by each State to
                           determine whether a producer had one or multiple dairy operations. As
                           shown in exhibit B, we found that the criteria used by the four States varied
                           considerably. In some cases, all four States’ criteria were in agreement – for
                           instance, all of the States stipulated that to have more than one dairy

2
    Title 7 CFR 1430.203


USDA/OIG-Audit No. 03601-10-Ch                                                                          3
                    operation, a producer had to have separate herds, separate milking barns and
                    bulk tanks, and had to receive separate milk marketing statements for each
                    separate operation. However, California had only those three requirements,
                    while the other States required additional information to make their
                    determinations. Pennsylvania officials reviewed 14 different criteria related
                    to dairy herds, facilities, location, recordkeeping, management, filing of tax
                    returns, and other items. The other two States each had 10 criteria they
                    considered, but these differed from one another in several respects.

                    We also found that the States had differing policies regarding the
                    documentation of their procedures. California had seven written procedures,
                    but in practice only used three of these. Wisconsin and Pennsylvania had
                    provided some documentation to the county offices, but supplemented these
                    with verbal instructions. In Michigan, none of the criteria were in writing.

                    To determine whether these differences in definitions could result in
                    disparate treatment of dairy producers in different States, and whether the
                    States were consistently applying their own criteria, we (1) reviewed a
                    judgmental sample of 20 dairy producers, 5 producers from each of the
                    4 sampled States (California, Michigan, Pennsylvania and Wisconsin), who
                    had multiple dairy operations according to the MILC Program payment
                    database; and (2) reviewed FSA State Committee minutes from each of the
                    4 States to identify instances where producers participating in the MILC
                    Program had applied for changes in their dairy operations. Based on our
                    review of the 20 producers selected from the database, we determined that
                    each State’s decisions to allow multiple units were consistent with their
                    established criteria and that these were applied consistently within each State.
                    However, in reviewing the State Committee minutes for Pennsylvania, and
                    information obtained about a producer in California, we identified three
                    instances in which determinations made by one State would not have been
                    upheld by the other due to their different definitions of a dairy operation.

                    We found that in the Pennsylvania State FSA Committee minutes, one
                    producer (Producer A) with two dairy operations was mentioned which
                    appeared very similar to another producer (Producer B) who had applied for a
                    change in California.        Producer A in Pennsylvania was requesting
                    reconsideration of the State Executive Director’s determination that he
                    qualified for only a single dairy operation and a single MILC contract instead
                    of the two he believed he was entitled to. In another Pennsylvania case, a
                    producer (Producer C) contended that he had three separate dairy operations
                    but was determined by the State to have only one dairy operation for
                    purposes of participation in the MILC Program.

                    In each case, we identified the facts used by the FSA State offices to make its
                    determination. We then contacted the other State office to determine whether
                    the same determination would have been made. Where necessary, we were
                    required to contact the county office where a farm was located to obtain

USDA/OIG-Audit No. 03601-10-Ch                                                                    4
                                   information which one State required in order to make a determination but
                                   which the other State had not considered necessary.

                                   In comparing Producer A in Pennsylvania to Producer B in California, we
                                   noted that each producer had two dairies with the following characteristics in
                                   common:

                                         1.   Dairy #1 was a single operation and participated in DMLA-III;
                                         2.   Dairy #2 did not participate in DMLA-III;
                                         3.   Each dairy operation is at a different location; and
                                         4.   Each dairy operation has a separate milking barn, tank, and facility.

                                   •     For Producer A in Pennsylvania, the FSA State office disapproved the
                                         producer’s request for two MILC contracts. According to the FSA State
                                         Committee, the dairy operation did not meet all of the requirements for
                                         two separate dairy operations because (1) one storage facility for
                                         supplemental feed was used for both operations; (2) there was one record
                                         keeping system, (3) there was one bank account, and (4) the dry cows
                                         from both facilities were kept at the same third facility and returned to
                                         the operation when freshened. However, according to a California State
                                         FSA official, the above issues would not have been factors in making
                                         their determination. The producer’s dairy operations meet the California
                                         State FSA Office’s three criteria (separate milk marketing statements,
                                         cows, facility) and would have been approved as two separate dairy
                                         operations. As a result, while in Pennsylvania the producer received only
                                         $54,569 for a single dairy operation, in California the producer would
                                         have received $110,679, a difference of $56,1103.

                                   •     For Producer B, the FSA county office in California determined that the
                                         two dairies qualified as separate operations and approved the producer’s
                                         request for two MILC contracts. This determination was based on
                                         California’s three criteria (separate milk marketing statements, separate
                                         cows, and separate facilities) that are required by the State office.
                                         However, when we described these circumstances to a program official
                                         in the Pennsylvania State FSA Office, we were told that this information
                                         was insufficient to make a determination. The Pennsylvania State FSA
                                         official stated that to make a determination under that State’s criteria,
                                         they would need to know whether the “operations” under consideration
                                         had (1) separate management for the two operations, (2) separate facility
                                         locations and bulk tanks for each operation, (3) separate accounts for
                                         feed purchases, (4) separate sets of records, and (5) separate bills for
                                         each operation. The California State FSA Office did not have this
                                         information, but we obtained it through the applicable county office.
                                         When we provided this further information to the Pennsylvania State
                                         FSA Office, we were told that Producer B’s operation did not meet the
3
    The county office originally approved as two separate operations. The State Committee approved as one operation.


USDA/OIG-Audit No. 03601-10-Ch                                                                                         5
                        criteria related to “management” and thus would have been considered a
                        single dairy operation rather than the two allowed by California. During
                        FY 2002 and 2003 the producer in California received a total of
                        $127,300 in MILC payments, $70,325 more than the $56,975 he would
                        have received in Pennsylvania.

                    •   For another producer in Pennsylvania (Producer C), the FSA State
                        Committee disapproved the producer’s contention that he had three
                        separate dairy operations and his request for three MILC contracts.
                        Based on a review of the State Committee minutes, we found the
                        following information about the dairy facilities:

                        1. Dairy Operation A participated in DMLA-III
                        2. Dairy Operation B did not participate in DMLA-III, but was in
                           operation at the time.
                        3. Dairy Operation C was established after DMLA-III ended
                        4. Each farm has its own dairy operation (milking barn and bulk tank)
                        5. Each dairy received separate milk marketing statements

                    The Pennsylvania State FSA Office determined that the three facilities were
                    not in fact separate, but a single dairy operation. This determination was
                    based upon the following facts: (1) Feed was purchased and delivered to one
                    feed center before distribution to the three facilities; (2) all three were run by
                    the same management; (3) the three facilities shared a single bank account
                    for their income and expenses; and (4) heifers from all three facilities were
                    commingled and one employer identification number is used for all three
                    facilities. However, when we described this scenario to an official at the
                    California State FSA Office, he responded that the three facilities met
                    California’s three criteria based on the following: (1) the three facilities
                    received separate milk marketing statements; (2) each facility had its own
                    milking barn and bulk tank; and (3) the milking cows were separate at each
                    facility. The FSA State official stated that based on the information
                    provided, this producer’s request for three dairy operations and three
                    contracts would have been approved in California. In California, the
                    producer would have received $173,036 for 3 separate operations, while in
                    Pennsylvania he actually received only $54,425 as a single dairy operation.
                    This resulted in a disparity of $118,611 in MILC Program payments between
                    the two States.

                    In our review of FSA’s MILC Program database, we noted an overall
                    disparity between some States in the numbers of producers who had multiple
                    dairy operations and multiple contracts (see exhibit A). For instance, of
                    Pennsylvania’s 6,148 MILC contracts as of December 2003, only 34 (or
                    0.6 percent) were for multiple dairy operations. In contrast, of California’s
                    2,073 MILC contracts at that time, 455 (or 22 percent) were on multiple
                    operations. Of Michigan’s 2,878 contracts, 1 percent was for multiple
                    operations, while 2.5 percent of Wisconsin’s 20,965 contracts fell into this

USDA/OIG-Audit No. 03601-10-Ch                                                                      6
                    category. FSA national officials believed that the much higher percentage of
                    multiple contracts in California was attributable to both the relatively large
                    size of dairy operations in that State and the different criteria used to
                    distinguish single from multiple dairy operations owned by a particular
                    producer.

                    We concluded that the different criteria used by various States to define a
                    dairy operation did in fact result in disparate treatment of some producers and
                    that a more specific definition was needed to address the problem. FSA
                    national officials agreed with this assessment, but an OGC official confirmed
                    that existing legislation prohibits FSA from changing the current definition.
                    However, the OGC official also stated that FSA is not restricted from
                    submitting proposed legislation to accomplish this if the MILC Program is
                    extended beyond the end of FY 2005. On July 6, 2004, a bill to amend the
                    Farm Security and Rural Investment Act of 2002 was introduced into
                    Congress that would, if approved, extend the program through FY 2007.
                    This provides FSA with the opportunity to submit proposed language, for
                    inclusion in the pending legislation, to allow for a clear and consistent
                    definition of a dairy operation that could be applied to all dairy producers
                    nationwide.

Recommendation
No. 1
                    Since the program may be extended, submit proposed language to the
                    Department, for inclusion in the amendment to the Farm Security and Rural
                    Investment Act of 2002, which would permit FSA to apply a consistent,
                    nationwide definition of a “dairy operation” to all producers participating in
                    the MILC Program.

                    Agency Response

                    FSA officials agreed with the recommendation. They stated that FSA has
                    submitted an Options Memorandum to the Secretary requesting that
                    consideration be given to submitting to Congress proposed language for
                    inclusion in any pending legislation that would amend the MILC program by
                    allowing the Secretary to establish consistent criteria for determining single
                    dairy operations from multiple dairy operations nationwide. In subsequent
                    conversations with an FSA official, FSA stated that the memorandum would
                    be submitted to the Secretary by December 31, 2004.

                    OIG Position

                    We accept FSA’s management decision.




USDA/OIG-Audit No. 03601-10-Ch                                                                   7
Finding 2                  ELIGIBILITY AND PAYMENT ERRORS RESULTED IN UNSUPPORTED
                           COSTS AND UNDERPAYMENTS TO PRODUCERS

                            We reviewed 63 out of approximately 495 MILC contracts approved by three
                            FSA county offices in Michigan. While we found that the three offices were
                            generally accurate when making eligibility determinations and in calculating
                            program payments, we did identify errors that resulted in ineligible payments of
                            $18,860, unsupported payments of about $40,800, and underpayments of about
                            $4,500 (see exhibit A). The conditions we noted were the result of eligibility
                            errors and misinterpretation of payment rules. During our audit, the county
                            offices initiated and in some cases completed corrective actions.

                            Eligibility Errors
                                   • Conservation Certification Not Obtained

                            To be eligible to receive MILC payments, a dairy operation must certify
                            compliance using form AD-1026.4 However, in one county office, two
                            producers were approved for participation even though the county office did not
                            have these forms on file. A county office official stated that employees often
                            assumed that the certifications were in place because this had also been a
                            requirement of the DMLA Program. By incorrectly confirming the producer’s
                            compliance, the county office made unsupported payments totaling $39,862.

                                   •    DMLA Records Not Reviewed

                            Dairy operations must be organized under MILC the same way they were
                            organized under DMLA. We found that one county office mistakenly approved
                            three MILC contracts for one dairy operation, which resulted in an overpayment
                            of $14,484.31. Under DMLA, the three producers were partners in one dairy.
                            They then applied separately for the MILC Program, and the county office
                            approved all three applications without first checking the DMLA application.
                            During our audit, the county office had already identified this error and was
                            calculating the overpayment for recovery.

                            In the same county office, we found one producer applied for and received
                            100 percent of a dairy operation’s MILC payments even though it was a
                            50/50 partnership under DMLA. Because of this error the county overpaid one
                            partner by $4,374 and underpaid the second partner by the same amount. The
                            county executive director (CED) did not review the dairy’s DMLA application
                            to see how the operation was organized until the producer had received three
                            MILC payments. The CED then modified the contract to make all future
                            payments on a 50/50 basis.

4
    Notice LD-524, announcing the MILC Program, part 4C requires producers to submit form AD-1026 to certify compliance.


USDA/OIG-Audit No. 03601-10-Ch                                                                                             8
                                  •   Addendum Not Signed

                           Notice LD-530, dated December 17, 2002, states that either the CED or a county
                           committee member must sign and date the Addendum for Modification to the
                           MILC contract after the producer completes it. For all of its contracts, one
                           county did not sign the addenda which update the MILC contracts to include
                           modifications to program requirements that went into effect after the original
                           contracts were signed. The CED did not realize that the addenda had not been
                           signed.

                           Payment Errors

                           Dairy operations are to receive MILC payments no later than 60 days after the
                           production evidence (used to calculate monthly MILC payments) and all
                           supporting documents for the applicable month are received. Producers who
                           receive late payments are entitled to prompt payment interest as allowed by the
                           law. For nine MILC contracts in two county offices, the county offices made
                           payments more than 60 days after they received the producers’ production
                           evidence. The county offices did not calculate and pay the required late
                           payment penalties, which would have totaled $159.

                           Each month, eligible dairy operations must provide documentation to verify that
                           the dairy operation produced and marketed milk that month. The county office
                           must make a copy, date stamp the copy, attach the copy to the MILC contract as
                           proof of production, and return the original documentation to the producer.5
                           One county office did not have production evidence on file to support a monthly
                           program payment of $902.

Recommendation
No. 2          Verify that the FSA county offices have collected the cited overpayments of
               $18,858, as well as any portion of the unsupported costs of $40,764 for which
               the county offices cannot obtain the necessary eligibility documentation. In
               addition, verify that the county offices have disbursed the cited $4,533 in
               underpayments to producers.

                           Agency Response

                           FSA officials agreed with the recommendation. They stated that as of
                           November 10, 2004, the required eligibility documentation was obtained from
                           the appropriate producers to substantiate the $40,764 in payments issued to dairy
                           operations who had not provided appropriate production evidence or certified
                           compliance with highly erodible land conservation and wetland conservation
                           provisions.


5
    LD-524, announcing the MILC Program, part 8C.


USDA/OIG-Audit No. 03601-10-Ch                                                                            9
                  In addition, the appropriate county FSA offices in Michigan have initiated
                  actions for recovery by establishing receivables for the outstanding payments
                  and plan to have the underpayments of $4,533 and over payments of $18,858
                  resolved by December 15, 2004.

                  OIG Position

                  To achieve management decision, we need evidence that the cited $18,858 in
                  overpayments have been collected or are in the process of being collected.
                  FSA’s November 18, 2004, response included copies of outstanding receivables
                  reports and cash receipts history reports. In addition, on November 30, 2004,
                  FSA provided to us copies of demand letters related to MILC overpayments.
                  However, we have been unable to reconcile to the overpayment amounts cited in
                  the audit either (1) the receivables/cash receipts amounts or (2) the demand letter
                  amounts. We continue to work with your agency to account for the cited
                  overpayments.




USDA/OIG-Audit No. 03601-10-Ch                                                                    10
Scope and Methodology

                    We performed an audit of MILC payments at the FSA national office in
                    Washington, D.C.; at the Michigan State FSA Office in East Lansing,
                    Michigan; and at three selected Michigan county offices. We also obtained
                    information from the California, Pennsylvania, and Wisconsin FSA State and
                    county offices and from the MILC Program Payment Database. Our
                    fieldwork was performed between September 2003 and July 2004.

                    To determine whether dairy producer payments were properly determined,
                    we judgmentally selected 63 of 495 MILC contracts in Michigan from the
                    Allegan, Huron, and Sanilac County FSA Offices. We selected Michigan for
                    our State office visits because it was one of the larger States both in terms of
                    program payments and numbers of program participants. In addition, we
                    selected the three counties with the largest number of MILC contracts. The
                    sampled producers received over $1.8 million of the estimated $12 million in
                    payments issued in the three counties during fiscal years 2002 and 2003.
                    Overall, Michigan has paid participants over $84 million in MILC Program
                    benefits payments during this same period. We reviewed the dairy producer
                    files to determine whether producers provided the required documentation
                    and production evidence, whether transition payments and subsequent
                    monthly payments were properly computed, and whether payments to any
                    producer were made on production exceeding the 2.4 million pound cap.

                    Using ACL data-mining software, we analyzed the MILC Program Payment
                    Database for California, Michigan, Pennsylvania, and Wisconsin. As of July
                    2004 these States have issued over $824 million of the $2 billion in total
                    MILC payments made since the inception of the MILC Program in 2002. We
                    identified producers with two or more contracts with the same tax
                    identification numbers in order to determine whether the dairy operations
                    were separate and distinct entities. We also determined whether restructuring
                    of the dairy operations were completed in accordance with program
                    requirements.

                    Based on our analysis of the FSA MILC database, we selected 5 producers
                    from each of the 4 States for a total of 20 producers for further review. For
                    these producers, we reviewed 53 of 1,063 MILC contracts. We also
                    contacted the FSA State offices in California, Michigan, Pennsylvania, and
                    Wisconsin to determine the criteria they used when defining a dairy
                    operation.

                    The audit was conducted in accordance with Generally Accepted
                    Government Auditing Standards.


USDA/OIG-Audit No. 03601-10-Ch                                                                   11
                    To accomplish our objectives we:

                        Reviewed notices, policies and procedures governing the MILC
                        Program, including the Code of Federal Regulations, title 7;

                        Reviewed policies and procedures governing the DMLA Program,
                        including the Code of Federal Regulations, title 7;

                        Interviewed FSA national officials as well as State office and county
                        level officials in four States to determine what controls were used to
                        monitor MILC Program payments;

                        Reviewed county office files which consisted of MILC applications,
                        DMLA applications, payment data, and conservation certification
                        records;

                        Visited the Michigan Milk Producers Association to determine the
                        reliability of producer production evidence;

                        Reviewed the County Operation Review Report to identify any reported
                        deficiencies that could affect program payments;

                        Reviewed the State committee minutes to determine the basis for the
                        approval or disapproval of MILC applications when the producer
                        requested a change in operation such as splitting an existing operation or
                        purchasing a new operation;

                        Analyzed the FSA MILC Program Payment Database to identify
                        producers with multiple dairy operations to determine whether the dairy
                        operations were separate and distinct entities; and

                        Held discussions with OGC to discuss the courses of action open to FSA
                        in applying a more specific definition of a dairy operation nationwide.




USDA/OIG-Audit No. 03601-10-Ch                                                                 12
Exhibit A
Summary of Monetary Results



                Description            Amount     Category

Finding 2       MILC Payments Issued   $40,764    Unsupported Costs,
                Without Supporting                Recovery Recommended
                Documentation

Finding 2       Eligibility and Payment $ 4,533   Other: Underpayments and
                Errors                            Overcollections


Finding 2       Incorrect              $18,858    Questioned Costs,
                Determination of                  Recovery Recommended
                Dairy Operations
                   Total               $64,155




USDA/OIG-Audit No. 03601-10-Ch                                               13
Exhibit B
Disparity Between Sampled States In The Number of Producers With Multiple Dairy
Operations And Multiple Contracts

                                                             TOTAL
                                        TOTAL              NUMBER OF
                      TOTAL          NUMBER OF           MILC CONTRACTS
       STATE        NUMBER OF        PRODUCERS           PER PRODUCERS
                       MILC         WITH MULTIPLE        WITH MULTIPLE
                    CONTRACTS           DAIRY                 DAIRY
                                     OPERATIONS            OPERATIONS
      California         2,073           202                    455
      Michigan           2,878            14                     29
     Pennsylvania        6,148            17                     34
      Wisconsin         20,965           250                    545
        Totals          32,091           483                   1,063




USDA/OIG-Audit No. 03601-10-Ch                                                    14
Exhibit C
STATE CRITERIA

The Farm Security and Rural Investment Act of 2002 requires FSA to apply the same standards that
were applied in implementing DMLA-III. In DMLA-III, a dairy operation was defined as any person
or group of persons, who, as a single unit as determined by CCC, produce and market milk
commercially produced from cows, and whose production and facilities are located in the United
States. Each State and county office shall strictly adhere to and apply this definition to the MILC
Program in the exact same manner applied for the DMLA-III program in your State with no variation.


   STATE OFFICE CRITERIA FOR DETERMINING SEPARATE DAIRY OPERATIONS
              Criteria:     California1 Michigan2 Pennsylvania3 Wisconsin4
Separate Cows                    x         x           x            x
Separate Facility Locations
  Includes milking barn and bulk tank                           x                    x                     x   x
Separate Records
  Includes Milk Checks                                                               x                     x   x
  Includes Milk Marketing Statements                            x                    x                     x   x
  Includes Accounting Records                                                                              x
  Includes Bank Accounts                                                             x                     x   x
  Includes Bills (Each dairy is responsible)                                                               x
  Includes Accounts for Storage                                                                            x
  Includes Accounts for Feed Purchases                                                                     x   x
  Includes Accounts for Breeding Expenses                                                                      x
  Includes Credit/Financing                                                                                x   x
  Includes Veterinary Bills                                                                                    x
Separate Feed Receipts                                                              x5
Separate Management                                                                 x                      x
Separate Labor                                                                      x
Separate SSN or EIN for each operation                                                                     x
Separate Capital                                                                     x
If leasing, who pays for lease?                                                      x
How are income tax returns filed?                                                                          x   x
Whose contributions are significant and at                                                                 x
 risk?




1
    The three criteria used to determine a separate dairy operation.
2
    All criteria are reviewed; however, the State looks more at the financial aspect of an operation.
3
    All criteria are reviewed; however, the criteria are reviewed for their separateness.
4
    All criteria are reviewed; however, all criteria do not have to be separate. There is some judgment.
5
    Producer needs to provide information to show the operation paid for the feed.


USDA/OIG-Audit No. 03601-10-Ch                                                                                     15
Exhibit D
FSA’S RESPONSE TO DRAFT REPORT




USDA/OIG-Audit No. 03601-10-Ch   16
Exhibit D
FSA’S RESPONSE TO DRAFT REPORT




USDA/OIG-Audit No. 03601-10-Ch   17
Exhibit D
FSA’S RESPONSE TO DRAFT REPORT




USDA/OIG-Audit No. 03601-10-Ch   18
Information copies of this report have been distributed to:

Administrator                                                 4
 Attn: Agency Liaison Officer
General Accounting Office                                     1
Office of the Chief Financial Officer
  Director, Planning and Accountability Division              1
